                                      SOCIAL SECURITY
MEMORANDUM
Date:   June 20, 2003                                                     Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Assistant Inspector General
         for Audit

Subject: Sierra Regional Center – An Organizational Representative Payee for the Social
        Security Administration (A-09-03-23023)


        Attached is a copy of our final report. The objectives of our review were to determine
        whether the Sierra Regional Center (1) had effective safeguards over the receipt and
        disbursement of Social Security benefits and (2) ensured Social Security benefits were
        used and accounted for in accordance with the Social Security Administration’s policies
        and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me at (410) 965-9700.




                                                  S
                                                  Steven L. Schaeffer


        Attachment

        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    SIERRA REGIONAL CENTER – AN
  ORGANIZATIONAL REPRESENTATIVE
        PAYEE FOR THE SOCIAL
      SECURITY ADMINISTRATION

    June 2003     A-09-03-23023




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE
Our objectives were to determine whether the Sierra Regional Center (SRC) (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ payments.1 A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests. Rep Payees are responsible for using benefits in the
beneficiary’s best interests.

SRC is a State mental institution that provides services to individuals with mental
retardation and related conditions. SRC is an organizational Rep Payee located in
Sparks, Nevada. As a Rep Payee, SRC provides services for individuals living within
the institution. SRC also enters into contractual agreements with care providers for
the daily care of individuals living outside the institution.

RESULTS OF REVIEW
Generally, SRC (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured that Social Security benefits were used
and accounted for in accordance with SSA’s policies and procedures. However, we
identified three areas where SRC could improve its performance as a Rep Payee.
SRC neither returned conserved funds in a timely manner nor maintained supporting
documentation for all expenditures. In addition, SRC did not ensure beneficiaries’
earnings were properly reported.




1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                                    i
RECOMMENDATIONS
We recommend that SSA direct SRC to (1) return conserved funds to the new
Rep Payee or SSA for individuals no longer in its care; (2) maintain supporting
documentation for the expenditures of beneficiaries who live outside the institution;
and (3) strengthen its procedures for reporting the earnings of its beneficiaries.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix A.

REP PAYEE COMMENTS
SRC agreed with all of our recommendations. The full text of SRC’s comments is
included in Appendix B.




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)            ii
                                                                         Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

   Conserved Funds Not Returned Timely ...................................................................... 4

   Supporting Documentation for Expenditures............................................................... 5

   Reporting of Earnings for Beneficiaries ....................................................................... 6

CONCLUSIONS AND RECOMMENDATIONS .............................................................. 7

OTHER MATTERS ........................................................................................................ 8

APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – Representative Payee Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
                                                                       Acronyms
FO                           Field Office

OASDI                        Old-Age, Survivors and Disability Insurance

POMS                         Program Operations Manual System

Rep Payee                    Representative Payee

RPS                          Representative Payee System

SLA                          Supported Living Arrangement

SRC                          Sierra Regional Center

SSA                          Social Security Administration

SSI                          Supplemental Security Income




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
                                                                   Introduction
OBJECTIVE
Our objectives were to determine whether the Sierra Regional Center (SRC) (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ and recipients’ benefit payments.2 A Rep Payee may be an individual
or an organization. SSA selects Rep Payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the beneficiary’s best interests.
Their duties include:3

•     using benefits to meet the beneficiary’s current and foreseeable needs;

•     conserving and investing benefits not needed to meet the beneficiary’s current
      needs;

•     maintaining accounting records of how the benefits are received and used;

•     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount; and

•     reporting any changes in circumstances that would affect their performance as a
      Rep Payee.

About 7.6 million individuals have Rep Payees—approximately 4.5 million are OASDI
beneficiaries, 2.3 million are SSI recipients, and 800,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they serve.


2
    42 U.S.C. §§ 405(j) and 1383(a)(2).
3
    Id.; 20 C.F.R. Part 404, Subpart U, and Part 416, Subpart F.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)               1
                                                         Number of             Number of
                Type of Rep Payee                       Rep Payees         Individuals Served
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                      5,333,200              6,685,100
    Organizational Payees: State Institutions,
    Local Governments, and Others                                41,500                807,400

    Organizational Payees: Fee-for-Service                          900                104,200

    Total                                                      5,375,600              7,596,700
Source: Master Representative Payee File as of January 2003.

SRC is a State mental institution that provides services to individuals with mental
retardation and related conditions. SRC is an organizational Rep Payee located in
Sparks, Nevada. As a Rep Payee, SRC provides services for individuals living within
the institution. SRC also enters into contractual agreements with care providers for the
daily care of individuals living outside the institution. These contracts are referred to as
supported living arrangements (SLA). Although SRC contracts with care providers for
individuals living outside the institution, it remains the Rep Payee for all SSA
beneficiaries.

From May 1, 2001 to April 30, 2002, SRC received $383,669 in Social Security
benefits on behalf of 90 beneficiaries. As a State mental institution, SRC is exempt
from providing SSA with an annual Representative Payee Report accounting for how
benefits were spent and invested. Instead, SSA is required to perform an on-site review
every 3 years.4 The SSA field office (FO) in Reno, Nevada, conducted on-site reviews
of SRC in September 2001 and April 2002.

SCOPE AND METHODOLOGY
Our audit covered the period May 1, 2001 through April 30, 2002. To accomplish our
objectives, we:

•     Reviewed the Social Security Act and SSA policies and procedures pertaining to
      Rep Payees.

•     Contacted SSA regional office and FO staffs to obtain background information about
      the Rep Payee’s performance.

•     Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
      were in the Rep Payee’s care as of April 30, 2002 or who left the Rep Payee’s care
      after May 1, 2001.



4
    Program Operations Manual System (POMS), section GN 00605.001 and GN 00605.500.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                      2
•   Obtained from the Rep Payee a list of individuals who were in its care and had
    received SSA funds as of April 30, 2002 or who left its care after May 1, 2001.

•   Compared and reconciled the RPS list to the Rep Payee’s list to identify the
    population of SSA beneficiaries who were in the Rep Payee’s care from May 1, 2001
    to April 30, 2002.

•   Reviewed the Rep Payee’s internal controls over the receipt and disbursement of
    OASDI benefits and SSI payments.

•   Performed the following tests for all beneficiaries.

    -   Compared and reconciled benefit amounts received according to the Rep
        Payee’s records to benefit amounts paid according to SSA’s records.

    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf.

•   Traced a sample of recorded expenses to source documents and examined the
    underlying documentation for reasonableness and authenticity.

•   Interviewed a sample of beneficiaries to determine whether their basic needs were
    being met.

We performed our field work between August and December 2002 in Sparks, Nevada;
Reno, Nevada; and Richmond, California. We conducted our audit in accordance with
generally accepted government auditing standards.




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)            3
                                                       Results of Review
Our audit disclosed that SRC generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured that Social Security
benefits were used and accounted for in accordance with SSA’s policies and
procedures. However, we identified three areas where SRC could improve its
performance as a Rep Payee. SRC neither returned conserved funds in a timely
manner nor maintained supporting documentation for all expenditures. In addition,
SRC did not ensure beneficiaries’ earnings were properly reported.

CONSERVED FUNDS NOT RETURNED TIMELY
SRC did not return conserved funds timely for beneficiaries who were no longer in
its care. This occurred because SRC did not have procedures in place to identify
conserved funds in its possession after a change in Rep Payee. Instead, SRC relied
on demand letters from SSA or new Rep Payees before initiating action to return the
conserved funds. As a result, three beneficiaries did not receive a total of $1,399 in
conserved funds to which they were entitled.

SSA’s procedures require that a Rep Payee who has a beneficiary’s conserved or
invested funds must return the funds to SSA or, as directed, to a successor Payee or
beneficiary in direct payment.5 In addition, SSA’s Guide for Organizational Rep Payees
requires that such Payees return any conserved funds if they no longer serve as Rep
Payee for the beneficiary.6

As depicted in the table below, SRC held about $1,399 for three individuals who had
been assigned to new Rep Payees. SRC was unaware these conserved funds were in
its possession. As of March 2003, SRC held the conserved funds for an average of
16.3 months after the individuals were no longer in its care. Therefore, these individuals
could not use the conserved funds for personal needs.




5
    POMS, section GN 00603.055.
6
 Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, page 9.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                        4
     SRC Beneficiary        Date Beneficiary            Conserved           Number of Months
        Number              Left SRC’s Care               Funds               Held by SRC

          00221              February 2002                  $537.43                  13

          00893                   July 2001                 $308.33                  20

          01226             November 2001                   $552.88                  16

           Total                                        $1,398.64
Source: SRC Resident Trust Fund History as of March 2003.

SUPPORTING DOCUMENTATION FOR EXPENDITURES
SRC needs to improve its documentation to support expenditures from conserved
funds for beneficiaries who lived outside the institution. We found that SRC did not
ensure that care providers for these individuals maintained detailed receipts for all
expenditures. As a result, SSA did not have reasonable assurance that conserved
fund expenditures were used to meet the beneficiary’s needs.

SSA’s procedures require that Rep Payees use the benefits they receive to meet the
beneficiary’s needs and best interests. Rep Payees are responsible for keeping records
and reporting on the use of benefits.7 In addition, SSA’s Guide for Organizational Rep
Payees requires that such Payees keep written records of all payments received from
SSA and how they are spent and/or saved.8 SRC also enters into SLA contracts with its
care providers, which state that receipts must be retained for all expenditures.

From May 1, 2001 to April 30, 2002, SRC served as Rep Payee for 90 beneficiaries,
of whom 38 lived outside the institution. SRC received the Social Security benefits for
these individuals and issued a monthly check to their care providers to pay for room and
board. For individuals with conserved funds, SRC periodically issued a check to the
care providers to purchase specific items for the beneficiaries.

For 16 beneficiaries who lived outside the institution, we selected 34 payments to
determine the adequacy of support for expenditures from conserved funds. Our review
disclosed that 11 (32.4 percent) of the 34 payments were not properly supported.
For example, SRC issued a $500 check to a care provider to purchase clothes for a
beneficiary. However, neither SRC nor the care provider retained documentation to
support the expenditure. As a result, we were unable to substantiate whether these
funds were used for their intended purpose.



7
    POMS, section GN 00605.001.
8
 Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, page 8.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                        5
REPORTING OF EARNINGS FOR BENEFICIARIES
SRC did not always report earnings for the beneficiaries in its care. This occurred,
in part, because of miscommunication between the FO and SRC. In addition, SRC
did not submit pay slips or other evidence of wages to SSA on a recurring basis.
Without a reliable wage reporting process, SSA may incur overpayments resulting
from unreported or misreported earnings.

SSA’s procedures require that Rep Payees report any changes to SSA that may affect
the individual’s entitlement or benefit payment amount.9 In addition, SSA’s Guide for
Organizational Rep Payees requires that such Payees report any changes or events
that could affect the beneficiary’s eligibility for benefits or payment amount, such as
changes in income (for example, wages or pensions).10

From May 1, 2001 to April 30, 2002, SRC served as Rep Payee for 90 beneficiaries,
of whom 31 received earnings from outside employment. However, we found that
SRC did not always provide SSA with pay slips or other acceptable evidence of wages
for the beneficiaries in its care. We encourage SSA to work with SRC to establish a
reliable wage reporting process for its beneficiaries. Such a process should ensure that
all earnings are reported in a timely and accurate manner.




9
     POMS, section GN 00502.113.
10
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, page 8.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                         6
                                                    Conclusions and
                                                   Recommendations
Generally, SRC (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured that Social Security benefits were used
and accounted for in accordance with SSA’s policies and procedures. However,
SRC should return conserved funds in a timely manner and maintain supporting
documentation for all expenditures. In addition, SRC should ensure beneficiaries’
earnings are properly reported. We recommend that SSA:

1. Direct SRC to return conserved funds to the new Rep Payee or SSA for
   individuals no longer in its care.

2. Direct SRC to maintain supporting documentation for the expenditures of
   beneficiaries who live outside the institution.

3. Work with SRC to strengthen its procedures for reporting the earnings of its
   beneficiaries.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix A.

REP PAYEE COMMENTS
SRC agreed with all of our recommendations. The full text of SRC’s comments is
included in Appendix B.




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)        7
                                                                  Other Matters
ACCOUNTING FOR SOCIAL SECURITY BENEFITS
From May 1, 2001 to April 30, 2002, SRC received $383,669 in Social Security benefits
on behalf of 90 beneficiaries. We found that SRC inadvertently posted two benefit
payments to the incorrect beneficiary. These errors went undetected because SRC
did not periodically review the detailed account balances for its beneficiaries to identify
potential errors and inconsistencies. As a result, two beneficiaries did not receive a
total of $60 in benefit payments to which they were entitled. SRC agreed and adjusted
its accounting records during our audit. Therefore, we do not have any further
recommendations.

SSA’s procedures require that Rep Payees maintain adequate records of how
benefits are received and used for each beneficiary.11 In addition, SSA’s Guide for
Organizational Rep Payees requires that such Payees establish an accounting system
to track how much money was received, how much money was spent, and the balance
saved for each beneficiary.12




11
     POMS, section GN 00502.113.
12
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, page 27.


Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                         8
                                            Appendices




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
                                                                          Appendix A

Agency Comments




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
SOCIAL SECURITY ADMINISTRATION
_____________________________________________________________________

Refer to:     S2D9532                                                    Memorandum

Date:         June 5, 2003

From:         Peter D. Spencer
              Regional Commissioner, San Francisco

Subject:      Audit of the Sierra Regional Center (SRC) in Sparks, Nevada--Reply

To:           Steven L. Schaeffer
              Assistant Inspector General for Audit

We appreciate the audit of the Sierra Regional Center (SRC) in Sparks, Nevada that
your staff performed. Our field office (FO) had difficulty in discerning the level of SRC's
compliance with the representative payee program and your staff's assistance was
most helpful in clarifying the facts in this case.

We agree with all three of the recommendations mentioned in your report and will have
the Reno FO follow-up with SRC to insure that 1) all conserved funds for individuals no
longer in the care of the payee are returned to SSA; 2) documentation of expenditures
for beneficiaries living outside the institution is maintained; and 3) beneficiaries
earnings are reported to SSA timely and accurately.

Thank you for your assistance in resolving what initially appeared to be a more serious
problem.




                                           Peter D. Spencer
                                           Regional Commissioner




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
                                                                          Appendix B

Representative Payee Comments




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
Page 1 of 2
Sierra Regional Center
Work Program Revision # C21669

                                                  STATE OF NEVADA

          DIVISION OF MENTAL HEALTH AND DEVELOPMENTAL SERVICES

                                  SIERRA REGIONAL CENTER
                                                   605 South 21st Street
                                                Sparks, Nevada 89431-5599
                                                      (775) 688-1930
                                                    Fax (775) 688-1947
KENNY C. GUINN                                                                    CARLOS BRANDENBURG, Ph.D.
   Governor                                                                               Administrator

Michael J. Willden                                                                    DEBBIE HOSSELKUS
     Director                                                                          Deputy Administrator




Stephen L. Schaeffer
Assistant Inspector General for Audit
Social Security Administration
Baltimore, MD 21235-0001

Dear Mr. Schaeffer,

        I have reviewed your draft report of the audit of the Sierra Regional Center Client Trust
        Fund and agree with the your findings in principal.

        It should be noted that the State of Nevada has reduced institutional beds at Sierra Regional
        Center from 90 to 40 by integrating people into community residential supports.

        The 38 beneficiaries mentioned in your report live with families, as compared to 250 people
        cared for by incorporated providers under contract with Sierra Regional Center. The
        incorporated providers become representative payee while the families do not.
        Sierra Regional Center will work with these families to strengthen the keeping of receipts.

        Sierra Regional Center is not unaware of conserved funds but the internal controls in place
        in the accounting office require service coordinators to request funds be forwarded. Sierra
        Regional Center will strengthen procedures to notify the service coordinators of conserved
        funds.



                                        SUPPORTING NEVADANS IN FULL CITIZENSHIP

www.state.nv.us/hr/mhds/devserv
March 6, 2003; Audit 2003 Social Security.doc                                                TDD (775) 688-1946




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                                  B-1
Page 2 of 2
Sierra Regional Center
Work Program Revision # C21669

        For the people with earnings, Sierra Regional Center has been informed by Becky Archer of
        the local Social Security office that she has made an arrangement with employers for direct
        reporting of wages to the local office. As you might imagine it is not a sure thing that
        individual people will always bring home pay stubs and these pay stubs be conserved by
        every family. Sierra Regional Center has for the last 20 years forwarded earning reports
        from employers to the local office but the reports are sometimes returned unopened.

        Your auditors were helpful and courteous and expressed complimentary opinions about the
        services provided by Sierra Regional Center.

        Sincerely,

        /s/

        Greg Wood, Administrative Services Officer




                                        SUPPORTING NEVADANS IN FULL CITIZENSHIP

www.state.nv.us/hr/mhds/devserv
March 6, 2003; Audit 2003 Social Security.doc                                      TDD (775) 688-1946



Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)                     B-2
                                                                          Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Bill Fernandez, Director, Western Audit Division, (510) 970-1739

    Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to the persons named above:

    Jimmie R. Harris, Senior Auditor

    Regina D. Finley, Auditor

    Brennan Kraje, Statistician, Policy, Planning and Technical Services

    Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-03-23023.




Sierra Regional Center – An Organizational Rep Payee for SSA (A-09-03-23023)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Sierra Regional Center
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
